         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department of Energy's
Management and Use of Mobile
Computing Devices and Services




DOE/IG-0908                          April 2014
                                 Department of Energy
                                   Washington, DC 20585
                                         April 15, 2014

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Management and Use of Mobile Computing Devices and Services"

BACKGROUND

Mobile computing devices are routinely used in the Federal Government to facilitate internal and
external communications, collaborations and operations. Nearly $1.2 billion is spent annually on
mobile and wireless devices and services across the Federal Government. Because of the
significant use of electronic devices, the U.S. Office of Management and Budget developed a
mobility strategy to address the purchase and management of smart phones and tablets.
Agencies are encouraged to assess device inventories and usage, and establish controls to ensure
they are not paying for unused or underutilized information technology equipment, software or
services. In addition, voluntary programs have gained popularity throughout the private and
public sectors, which allow an individual to use personally owned mobile devices for work
purposes and, in some cases, receive stipends to help offset costs incurred by the employee.

A prior Office of Inspector General report identified weaknesses related to the acquisition and
use of mobile or wireless communication devices within the Department of Energy.
Specifically, our review of the Use and Management of Mobile Communications Services
(DOE/IG-0669, December 2004), found that the Department and its contractors incurred costs
for cellular phone and paging services that were not aligned with user needs, failed to take
advantage of volume discounts and incurred disproportionate administrative costs related to
managing services. In light of our prior findings and the increased use of mobile devices, we
initiated this audit to determine whether the Department effectively managed the acquisition and
use of mobile computing devices and services.

RESULTS OF AUDIT

The Department had taken certain actions designed to improve the management and acquisition
of mobile computing devices and services since our prior review. Despite those efforts, we
identified opportunities for the Department to improve the acquisition and management of
mobile devices and related services and potentially save more than $2.3 million over a 3-year
period at just 8 of 10 locations reviewed. In particular, we noted that:

   •   At the locations reviewed, the Department spent over $325,000 to support mobile devices
       that were not used the entire time they were activated in FY 2012. In addition, numerous
       other devices appeared to be significantly underutilized.
                                                 2


   •   Controls over facility contractor-administered stipend initiatives needed to be
       strengthened. At some sites, we noted that contractors had not confirmed that their
       employees were actually incurring incremental costs associated with business use, such
       as in the case of employees who privately maintained unlimited voice and/or data plans.
       In addition, the cost of providing employees with certain stipends appeared to exceed the
       cost of providing them with a Government device.

   •   The Department had not taken action to consolidate contracts and leverage demand to
       increase buying efficiency for the acquisition of mobile computing devices and services.
       We identified numerous locations that maintained multiple contracts with the same
       service providers. However, prices varied significantly for similar services. Also,
       organizations maintained numerous independent administrative teams responsible for
       mobile device acquisitions and management – this practice appeared to be inefficient and
       excessively costly.

The problems we identified occurred, in part, because the Department had not always developed
and/or implemented effective policies and procedures to govern the issuance, use and monitoring
of mobile devices and services. For instance, although many sites monitored overall costs, they
had not monitored usage to determine whether there was a continuing need for mobile devices.
In addition, sites had not developed and implemented policies and procedures to ensure that
employees who received stipends actually incurred additional costs as a result of using personal
devices for business purposes. Sites also had not always conducted adequate cost-benefit
analyses related to stipend initiatives, a factor that may have contributed to higher than necessary
payments to contractor employees. Furthermore, programs and sites had taken a fragmented
approach to procurement and administration of mobile devices rather than using a centralized
coordinated approach. This practice resulted in potentially costly and duplicative acquisition and
maintenance functions and varying prices paid for the same products and services.

While our findings indicate that more remains to be done, we did observe some positive actions
designed to reduce costs. Certain sites reviewed pooled voice minutes and/or data usage within
each respective site to help prevent overage charges. For example, the Office of the Chief
Information Officer told us that it realized significant cost savings by implementing mobile
device service plans with pooled minutes at Headquarters. In addition, prior to our site visit, Oak
Ridge National Laboratory Internal Audit completed a review of mobile devices and identified
air cards costing over $20,000 that had zero usage over a 6-month period. Based on that review,
Oak Ridge National Laboratory canceled service for a number of air cards. In accordance with a
recent Department memorandum on Streamlining and Reducing the Cost of Mobile Devices, the
Office of the Chief Information Officer had also taken action to implement recommendations
from an Integrated Project Team that was assembled to aid the Department in simplifying and
reducing the cost of acquiring mobile devices and service plans for Federal employees.

While these are positive actions, additional effort is necessary to ensure the Department is
managing mobile device efforts in a cost-effective manner. Without further improvement, the
Department will continue to spend more than necessary on the acquisition and use of mobile
computing devices, services and stipend initiatives. As such, we have made several
recommendations that, if fully implemented, could help the Department realize potential savings
of more than $2.3 million over the next 3 years. Because our review did not cover all
Department locations, we believe our estimate is conservative.
                                              3


MANAGEMENT REACTION

Management concurred with the report's recommendations, indicating that it had initiated
corrective actions related to implementing program improvements designed to address our
recommendations. Management's formal comments are included in Appendix 4.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Acting Under Secretary for Management and Performance
    Deputy Under Secretary for Science and Energy
    Chief of Staff
    Senior Advisor for Environmental Management
    Chief Information Officer
    Acting Chief Financial Officer
    Director, Office of Management
REPORT ON THE DEPARTMENT OF ENERGY'S MANAGEMENT AND
USE OF MOBILE COMPUTING DEVICES AND SERVICES


TABLE OF
CONTENTS

Mobile Computing Device and Service Management

Details of Finding ............................................................................................................................1

Recommendations and Management Reaction ................................................................................7

Auditor Comments ...........................................................................................................................8

Appendices

1. Potential Savings ........................................................................................................................9

2. Objective, Scope and Methodology .........................................................................................10

3. Related Reports ........................................................................................................................12

4. Management Comments ..........................................................................................................13
THE DEPARTMENT OF ENERGY'S MANAGEMENT AND USE OF
MOBILE COMPUTING DEVICES AND SERVICES

Mobile Computing Device and Service Management

The Department of Energy (Department) had not always managed the acquisition and use of
mobile computing devices and services in an effective and efficient manner. At the six program
offices and nine field sites visited, we identified costs totaling more than $325,000 for devices
and services that were not utilized during the period reviewed. In addition, controls over facility
contractor-administered stipend programs could be strengthened for Bring Your Own Device
(BYOD) initiatives at three sites tested. Furthermore, the Department may have spent more than
necessary establishing and managing various contracts related to the acquisition of mobile
devices and services.

                                                 Usage Inefficiencies

The Department spent more than necessary in Fiscal Year (FY) 2012 on mobile devices and
services at the locations reviewed. We found that more than $325,000 was spent on devices and
service plans that did not use any minutes and/or data when activated during FY 2012. These
devices included mobile technologies such as phones, BlackBerrys®, tablets and air cards. 1 For
example:

       •   Y-12 National Security Complex (Y-12) spent over $56,000 to support unused phones,
           air cards and tablets. In comments on our report, Y-12 officials indicated that they had
           identified a 10 percent reduction in devices subsequent to our site visit.

       •   National Nuclear Security Administration (NNSA) spent nearly $45,000 on 83 devices at
           Headquarters that went unused during the period reviewed, representing more than 10
           percent of the devices maintained by the program.

       •   Pacific Northwest National Laboratory (PNNL) spent over $41,000 for 97 mobile devices
           that were not used while activated, about one-third of which were not used for the entire
           12 months reviewed. For example, we noted that PNNL incurred charges for two
           employees who had separated from the Laboratory but did not turn in phones in
           accordance with the cell phone management process. As such, services for these phones
           had not been discontinued for at least the remainder of the fiscal year.

       •   Oak Ridge National Laboratory (ORNL) spent nearly $33,000 to maintain 126 devices
           that were not used while activated in FY 2012, including mobile phones and/or air cards
           and tablets. Subsequent to our review, ORNL officials informed us that policies and
           technical controls were implemented to reduce the number of underutilized and unused
           mobile devices.

In addition to the unused mobile computing devices and services identified, our audit discovered
what appeared to be significantly underutilized devices at each of the organizations reviewed.


1
    An air card is designed to permit a device connect to the internet using a cellular telephone system.


Page 1                                                                                            Details of Finding
The following table illustrates the potential underutilization of devices as a percentage of plan
allowance. 2

                         Zero Minute and 1-10% of Plan 11-20% of Plan                         21-30% of Plan
    Program              Data Usage         Allowance  Allowance                              Allowance
                         (devices)          (devices)  (devices)                              (devices)
    Office of Environmental Management:
    Headquarters         100                128        26                                     25
    MSA/CHPRC            184                11         0                                      0
    Office of Fossil Energy:
    Headquarters         52                 74         19                                     13
    Office of the Chief Information Officer:
    Headquarters         63                 49         15                                     7
    Office of Nuclear Energy:
    Headquarters         39                 48         19                                     15
    National Nuclear Security Administration:
    Headquarters         83                 323        115                                    61
    Y-12                 224                244        127                                    79
    Office of Science:
    Headquarters         10                 139        40                                     20
    Oak Ridge Office 43                     72         14                                     12
    ORNL                 126                271        88                                     56
    PNNL                 97                 315        97                                     69
    SUBTOTAL             1,021              1,674      560                                    357
    TOTAL UNUSED AND POTENTIALLY UNDERUTILIZED DEVICES                                        3,612

Due to the varying missions of the program offices and sites reviewed, we understand that a
business case may exist for mobile computing devices that have zero usage or are not used on a
regular basis. We could not determine whether all of the underutilized devices could be
terminated. However, based on the sheer number of potentially underutilized devices, we
believe it is important for the Department to re-evaluate devices for ongoing necessity and
determine which employees should be assigned mobile devices, considering both operational
requirements and cost of acquiring and maintaining the devices.

                                     Bring Your Own Device Initiatives

We identified opportunities for improved accountability at three facility contractors who initiated
BYOD programs. In particular, we found that sites had not always ensured employees were
actually incurring incremental costs associated with business use. In addition, certain facility
contractors had not always calculated mobile device stipend or cell phone allowance amounts in
the most cost effective manner, potentially costing the Department up to about $455,000 more
than necessary.

2
 Included in these figures are plans with limited capacity (e.g., 300 voice plan minutes or 5 gigabytes of data). We
did not include plans with unlimited voice minutes and/or unlimited data in the table unless the device experienced
zero usage.


Page 2                                                                                        Details of Finding
We identified opportunities to enhance accountability over BYOD initiatives at three sites
reviewed. These sites spent over $1.6 million in FY 2012 on stipend reimbursements to
employees for use of personal devices. Although there were a number of controls in place
surrounding the issuance of stipends such as training, employee certification and management
approval, additional controls could further strengthen BYOD programs. For example, officials at
the sites evaluated had not ensured employees were actually incurring incremental costs
associated with business use before approving stipends ranging from $15 to $110 per month.
Specifically, managers had not reviewed existing plans to determine whether employees had
unlimited voice and/or data prior to granting stipends, thereby eliminating the need to be
reimbursed. While many service providers furnish unlimited voice minutes as a standard
practice, we recognize that data amounts could be limited. However, without a control in place
to evaluate such plans, we found that the possibility existed that employees could claim stipends
even though they did not incur any additional charges as a result of business use. Further, the
sites reviewed had not implemented processes to ensure that employees were meeting established
policies for receiving stipends. While we are not advocating that every user be reviewed, we
believe it would be prudent to implement controls, such as periodically evaluating a sample of
stipend users to validate they are entitled to allowances being claimed.

We also found that certain facility contractors had not always calculated mobile device stipend or
cell phone allowance amounts to ensure the Department realized cost savings. In particular,
outdated and/or overstated rates were used in the calculation of stipend amounts paid to
employees at several sites. We found that higher than necessary stipend levels were established
at two sites, resulting in the Department paying $455,000 more than necessary in FY 2012.
Specifically, employees were reimbursed more than the cost the Government would have paid
for a Government-procured mobile device service plan. We found that PNNL used outdated
commercial rates for stipend calculations instead of lower current rates offered under the General
Services Administration (GSA) Federal Supply Schedule for similar mobile device plans. For
example, eligible employees at PNNL could have received a $90 per month stipend even though
a Government-issued device with a similar plan was available through GSA at a cost of
approximately $48. Had GSA rates been used in the calculation of various voice and data
stipends at PNNL, the Laboratory could have potentially avoided costs of more than $428,000.
In preliminary comments on our report, PNNL officials stated that stipend levels were
established using the consumer service rates available to their staff within the geographic region
because GSA rates did not apply to personally owned devices. While we understand that GSA
rates are not available on personal service contracts, we are concerned because, in many cases,
the stipends were higher than what would have been paid had the employees been issued
Government devices.

We also noted during our review that the Department experienced cost shifts that could have
been mistaken for cost savings. Specifically, although sites claimed that mobile device expenses
within information technology departments appeared to decrease when BYOD programs were
initiated, those costs were actually shifted to the specific project via project codes. This created a
cost savings for information technology departments, but not necessarily for the Department as a
whole. In addition, according to officials at one site, a surge in employee BYOD interest
resulted in many employees who did not previously have a business phone opting into the


Page 3                                                                           Details of Finding
BYOD program and being granted a stipend when it became available. Going forward, it may be
in the Department's best interest to only allow employees who normally would have been issued
a Government-issued mobile device to be eligible for a stipend.

                              Procurement of Devices and Services

The Department had not taken sufficient action to minimize costs associated with establishing
and managing various contract vehicles related to the acquisition of mobile computing devices
and services. In particular, we found that programs and sites established independent
administrative teams responsible for mobile device acquisitions and managed numerous
contracts with the same service providers that contained varying prices for similar services. For
example, documentation provided by programs and sites indicated that, in certain instances,
Headquarters paid about $56, and PNNL paid approximately $66 for nearly identical levels of
international voice and data service offered by the same carrier. While PNNL indicated that the
standard voice and data cost was $46 per month, we found at least one-third of devices reviewed
also incurred additional charges for international features. Even within individual sites, we noted
that numerous voice and data plans were maintained, which provided the same services at
varying prices. For instance, 34 separate voice plans associated with cellular service and 34
separate data plans associated with air card and tablet service were activated at ORNL during FY
2012. At our request, ORNL contacted two carriers to review the number and nuances of plans
offered. As a result, ORNL was able to consolidate and reduce its 68 plans by more than 50
percent. ORNL officials also commented that they will continue work to reduce the number of
plans made available for Government-issued devices.

Similar to the procurement issues we have identified in this report, we also noted that three of the
sites reviewed had established separate agreements for mobile device management software with
varying terms, resulting in higher than necessary costs. For instance, licenses for the software
were purchased for a 1-year term with annual renewal and/or maintenance at prices ranging from
approximately $28 per license at the East Tennessee Technology Park to $165 per license at
ORNL. However, the same software was procured by PNNL as perpetual, or lifetime licenses,
and had no expiration dates or additional yearly fees. As a result, costs for the same mobile
device technology at the three sites ranged between a one-time fee of $129 to a yearly fee of
$165. In preliminary comments on our report, ORNL reported that the software vendor had
discontinued permanent license prices. However, we found that PNNL was able to negotiate
additional licenses under the previous terms. As the Department continues to purchase mobile
device management software in support of BYOD initiatives, it is important that sites coordinate
and consolidate efforts to obtain this technology in the most economical manner.

Monitoring, Policies and Cost Controls

The problems we identified occurred, in part, because the Department had not always developed
and/or implemented effective policies and procedures to govern the issuance, use and monitoring
of mobile computing devices and services. In addition, we found that sites had not adequately
developed and implemented policies and procedures related to management of BYOD programs.
Furthermore, programs and sites had taken a fragmented approach to procurement and


Page 4                                                                          Details of Finding
administration of mobile devices rather than using a centralized coordinated approach, resulting
in potentially costly duplicative acquisition and maintenance functions and varying prices paid
for the same products and services.

                              Mobile Device Monitoring and Policy

Although Executive Order 13589, Promoting Efficient Spending, states that agencies should
assess mobile device inventories and usage and establish controls to ensure they were not paying
for unused or underutilized equipment, software or services, we found that the Department had
not implemented effective monitoring practices. Specifically, officials at several sites reviewed
had not always assessed or monitored individual usage patterns to determine ongoing necessity
of mobile devices. For instance, monitoring practices at the Richland Operations Office included
a review of disallowed features, overages and incorrect plan billings, but did not take usage data
into consideration to determine whether costs for unused or underutilized equipment could be
reduced or eliminated. Further, in preliminary comments on our report, PNNL stated that a
"reasonableness test" was performed, which takes into account the current number of devices and
changes in inventory counts and vendor fees. In doing so, however, individual usage patterns
were not monitored to determine the ongoing necessity of the mobile device. To its credit, the
Headquarters Office of Science suspended a device's account if it had not been connected to the
Enterprise Server within 30 days, and service was terminated after 60 days of inactivity.

Furthermore, we found the Department's contractors had not effectively developed and
implemented policies and procedures related to mobile device stipends associated with BYOD
programs. Despite establishing guidelines that included usage and travel criteria, policies
reviewed were not always prescriptive enough and may have permitted employees to be
reimbursed for mobile device services even though they were not used for business purposes
and/or travel. In addition, policies and procedures did not require verification that employees
who received stipends actually incurred additional costs as a result of using personal devices for
business purposes.

                                        Stipend Analyses

We found that inadequate cost-benefit analyses may have contributed to higher than necessary
stipends paid to employees at two sites. As noted by the White House's Digital Government
Strategy, Digital Government: Building a 21st Century Platform to Better Serve the American
People, BYOD programs can and should be cost effective. To achieve cost effectiveness, a cost-
benefit analysis is essential and should take into account both potential increases in employee
productivity and potential cost shifts. While certain sites had performed cost-benefit analyses
prior to implementation of stipend programs, we found that the analyses were not always
adequate. For example, in some instances, inappropriate rates were used when calculating
stipend amounts resulting in higher than necessary stipends. Specifically, ORNL used rates that
were higher than those offered to Government customers by GSA when calculating how much to
reimburse employees. Had adequate cost-benefit analyses been conducted, officials could have
determined whether proposed stipend amounts were more costly to the Department than issuing
mobile computing devices with similar plans through GSA's Federal Supply Schedule. During a


Page 5                                                                         Details of Finding
discussion with officials at ORNL, they indicated that BYOD efforts were aimed at increasing
worker productivity and mobility and not at realizing cost savings. While we recognize that
increasing productivity is a goal of BYOD programs, organizations should ensure that BYOD
programs are also carried out in a cost-effective manner.

                                 Independent Acquisition Efforts

Programs and sites had not always taken a coordinated approach to procuring mobile computing
devices and services. In particular, the Department's management of mobile device and service
acquisitions was largely conducted independently by programs and field sites, with little or no
coordinated or integrated efforts to consolidate and streamline acquisition processes to increase
efficiencies. Even within sites, we found that officials had not always monitored service plans to
ensure they were obtaining the best available pricing, such as in the case of ORNL. According
to the White House's Digital Government Strategy, adopting a shared services approach and
consolidating mobile device and wireless service contracts will not only reduce costs but also
improve an agency's ability to track usage, analyze pricing, secure devices and deliver mobile
applications. While we recognize that certain locations such as ORNL may have the need for
multiple service providers, care should be taken across the Department to ensure that mobile
device contracts are consolidated to the extent practical. Further, to maximize constrained
resources, the Office of Management and Budget's Federal Information Technology Shared
Services Strategy encouraged Federal agencies to eliminate wasteful spending that results from
implementing duplicative commodity information technology functions such as those related to
mobility solutions.

Opportunities for Savings and Path Forward

Without improvements, the Department may not realize costs savings of more than $2.3 million
over the next 3 years at just the programs and sites reviewed (see Appendix 1). In particular, we
determined the Department could realize savings by monitoring individual usage patterns and
terminating service for underutilized or unused devices. While we realize that not all
underutilized devices can be terminated, we believe that with an effective control system in
place, the potential exists for significant savings complex-wide. For instance, sites could use
spreadsheets and data analysis tools, such as those used by the audit team, to evaluate usage in a
timely and cost effective manner. In addition, the potential exists to reduce the cost of BYOD
programs through improved implementation of controls. We believe that our estimate of cost
savings is conservative because our review only focused on a sample of the Department's
programs and sites and included only certain types of voice and/or data plans. Therefore, it is
likely that potential cost savings could be significantly higher than our estimate.

Furthermore, current procurement practices will continue to prevent the Department and its
contractors from effectively leveraging enterprise-wide purchasing power and hinder the
Department's ability to benefit from streamlining purchases and contract administration. For
instance, the U.S. Department of Agriculture reported that it recently reduced expenses by
$4 million annually by streamlining mobile acquisitions. The U.S. Department of Agriculture



Page 6                                                                         Details of Finding
also hopes to obtain a 40 percent reduction in telecommunication expenses once it restructures
accounts, centralizes billing and makes better use of pooling of available minutes. In light of
current fiscal challenges, it is critical that the Department ensure that mobile device efforts are
implemented and managed in the most effective and efficient manner possible.

RECOMMENDATIONS

To improve the management, acquisition and use of mobile computing devices and services, we
recommend that the Under Secretary for Nuclear Security, the Under Secretary for Management
and Performance and the Deputy Under Secretary for Science and Energy, in coordination with
the Department's and National Nuclear Security Administration's Chief Information Officers:

   1. Develop and implement policies and procedures to ensure cost effective utilization of
      mobile computing devices, to include managing the issuance of mobile computing
      devices and evaluating activated devices for continuing business need;

   2. Develop a coordinated approach to BYOD implementation that addresses areas such as
      policies, best practices and lessons learned; and

   3. Develop and implement formal policies and procedures for ensuring that mobile
      computing device acquisitions are coordinated between Headquarters and field sites, to
      include:

           a) consideration of Federal Strategic Sourcing Initiatives, where appropriate;

           b) consolidation of mobile device contracts and agreements to better leverage
              enterprise purchasing power; and

           c) evaluation of carrier plans for consolidation opportunities.

MANAGEMENT REACTION

Management concurred with each of the report's recommendations and indicated that corrective
actions had been taken or were planned to address the issues identified. For example,
management noted that the Office of the Chief Information Officer will establish policies and
procedures to ensure cost-effective utilization of mobile computing devices. In addition,
management commented that it was developing Department policy on Mobile Technology
Management that will direct all programs to implement mobile technology management
processes to address, among other things, BYOD reimbursement controls. Management also
indicated that the Office of the Chief Information Officer, in collaboration with the program
offices, was assessing a new offering of Department-wide wireless service and planned to
implement them in FY 2014.




Page 7                                         Recommendations and Management Reaction
AUDITOR COMMENTS

Management's comments and planned corrective actions were responsive to our
recommendations. Management's comments are included in Appendix 4.




Page 8                                                                  Auditor Comments
Appendix 1

                                    POTENTIAL SAVINGS

As noted in the body of the report, we found that the Department of Energy (Department) could
realize potential cost savings of more than $2.3 million over the next 3 years at just the programs
and sites reviewed. Specifically, we found that over $325,000 more than necessary was spent to
support mobile computing devices that did not use any minutes and/or data when activated
during Fiscal Year (FY) 2012. This was calculated by comparing actual device usage to allotted
voice minutes and/or data amounts. Using computer assisted audit techniques, we conducted an
analysis to identify those devices with zero usage. In addition, we determined that over
$455,000 was spent in FY 2012 on employee stipends that appeared to exceed the cost of
providing employees with a Government device.

The following table summarizes the possible savings the Department could realize over the next
3 years through more effective management of its mobile computing devices. Because our
review was limited to certain types of plans, we believe our savings estimate is conservative.

                                     Identified FY 2012            Potential Savings
                                     Savings                       (3 years)
    Unused Mobile Devices
     Phones                     $178,970                           $536,910
     Tablets and Air Cards      $147,954                           $443,862
       Subtotal                 $326,924                           $980,772
    Bring Your Own Device Programs
      Stipends                  $455,210                           $1,365,630
    TOTAL                       $782,134                           $2,346,402




Page 9                                                                          Potential Savings
Appendix 2

                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Department of Energy (Department) effectively managed the
acquisition and use of mobile computing devices and services.

SCOPE

The audit was performed between October 2012 and April 2014, at Department Headquarters in
Washington, DC and Germantown, Maryland; the Oak Ridge National Laboratory, Y-12
National Security Complex, East Tennessee Technology Park and Oak Ridge Office in Oak
Ridge, Tennessee; and the Pacific Northwest National Laboratory, Hanford Site, Richland
Operations Office and Office of River Protection in Richland, Washington. The following
mobile computing devices were considered for this audit: cellular telephones, smart phones,
Blackberrys®, tablets and air cards. We reviewed 12 months of mobile device usage and cost
details provided by organizations and service carriers from October 2011 through September
2012, with the exception of the Richland Operations Office and the Office of River Protection.
These two locations were unable to provide data in a format suitable for consistent analysis of
usage details across all sites reviewed. The audit was conducted under Office of Inspector
General Project Number A13TG004.

METHODOLOGY

To accomplish our objective, we:

   •   Reviewed applicable laws and directives pertaining to information technology
       management, including Executive Order 13589 – Promoting Efficient Spending, dated
       November 9, 2011.

   •   Reviewed related reports issued by the Office of Inspector General and the U.S.
       Government Accountability Office (GAO).

   •   Reviewed best practices and GAO decisions pertaining to Bring Your Own Device
       (BYOD) programs.

   •   Reviewed documentation such as wireless contracts, data and voice plans options, usage
       information, General Services Administration pricing lists, the Federal Strategic Sourcing
       Initiatives, BYOD policies and initiatives.

   •   Held discussions with field site officials and officials from various Departmental offices
       responsible for mobile device management, acquisition and BYOD initiatives.

   •   Used data analysis software to evaluate mobile device usage and cost details provided by
       organizations and service carriers for Fiscal Year 2012. We obtained the data in


Page 10                                                    Objective, Scope and Methodology
Appendix 2 (Continued)

       electronic format and used computer assisted audit techniques to identify patterns and
       anomalies. This included compiling all available carrier data into one spreadsheet for
       each site and program. We combined all available data by wireless number and analyzed
       actual usage to plan allowance to identify underutilized and unused devices. Our analysis
       to identify utilization percentages could only be performed on devices that had plans with
       limited capacity (e.g., 300 voice plan minutes or 5 gigabytes of data). Plans with
       unlimited voice and/or data were excluded from our review unless they experienced zero
       usage.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010. Although the Department had established certain overarching
performance goals subsequent to our audit work, none of the sites evaluated had established
performance metrics specific to the acquisition and use of mobile computing devices and
services. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We relied on computer-
processed data to satisfy our audit objective and tested the validity of the data by comparing
reports provided by programs and site to vendor invoices. We determined that the data was
reliable for the purposes of our audit objective.

Management waived an exit conference.




Page 11                                                   Objective, Scope and Methodology
Appendix 3

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Use and Management of Mobile Communications Services (DOE/IG-
       0669, December 2004). The report identified that the Department of Energy
       (Department) had only limited assurance that mobile communication devices and services
       were being used and managed in a cost effective manner. At three of the eight sites
       visited, as much as $1.13 million annually could be saved by adopting more efficient
       methods for use and management of communication devices and services. For instance,
       costs for cellular phone and paging services were not aligned with user needs, i.e., a
       number of devices or services were over or under used. The issues identified occurred
       because organizations did not always focus on ensuring that a valid mission need existed
       or on using the most cost efficient method for obtaining needed services.

   •   Special Report on Management Challenges at the Department of Energy – Fiscal Year
       2014 (DOE/IG-0899, November 2013). Based on the work performed during Fiscal Year
       (FY) 2013 and other risk assessment tools, the Office of Inspector General identified
       eight areas, including operational efficiency and cost savings, which remained as
       management challenges for FY 2014. While positive strides had been made in a number
       of areas, many of the Department's most significant management challenges were not
       amenable to immediate resolution.

U.S. Government Accountability Office Reports

   •   Report on Better Implementation of Controls for Mobile Devices Should Be Encouraged
       (GAO-12-757, September 2012). According to the report, it is increasingly important
       that mobile devices be secured from expanding threats to confidentiality, integrity and
       availability of information maintained and shared. As such, the U.S. Government
       Accountability Office identified common security threats and vulnerabilities that exist
       with mobile devices, available security features and practices to mitigate the risk
       associated with these vulnerabilities and the extent with which the Government and
       private entities are addressing security vulnerabilities on mobile devices.

   •   Report on Improved and Expanded Use Could Save Billions in Annual Procurement
       Costs (GAO-12-919, September 2012). The report stated Federal agencies leveraged
       only a fraction of their buying power through strategic sourcing and achieved limited
       savings. In FY 2011, the Departments of Defense, Homeland Security, Energy and
       Veterans Affairs accounted for 80 percent of the $537 billion in Federal procurement
       spending, but reported managing about 5 percent or $25.8 billion through strategic
       sourcing efforts. These agencies reported savings of $1.8 billion – less than one-half of
       one percent of procurement spending.




Page 12                                                                        Related Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 4 (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0908

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
